LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 13, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1009 : ALTERA CORPORATION & SUBSIDIARIES V. COMMISSIONER OF
INTERNAL REVENUE
Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Former Foreign
Tax Officials, on March 13, 2020, I caused service to be made pursuant to Rule 29 on the
following counsel for the Petitioner and Respondent.
PETITIONER:
Nicole A. Saharsky
Mayer Brown LLP
1999 K Street NW
Washington, DC 20006
202-263-3000
nsaharsky@mayerbrown.com

RESPONDENT:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

This service was effected by depositing three copies of the Brief of Amici Curiae
Former Foreign Tax Officials in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 13th day of March 2020.

